KLE

gal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

CQ

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No. 20-303
UNITED STATES OF AMERICA,
Petitioner,

Vv.

JOSE LUIS VAELLO-MADERO,
Respondent.

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE
INTERAMERICAN INSTITUTE FOR CONSTITUTIONAL RIGHTS AS AMICUS CURIAE

SUPPORTING NEITHER PARTY in the above entitled case complies with the typeface

requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 5891 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 7th day of June, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS 0. .
My Comm. Exp. September 5, 2023

Notary Public

Qu.deaw-h, Gh le

Affiant 40810
